     U.S. Department of the Interior
     Office of Inspector General

                                  Audit Report

Bond Services, Lease Operations, Trust Fund Activities
              Guam Economic Development Authority
                                Government of Guam




                               Report No. 2002-I-0016
                                          March 2002
                                                                              G-IN-GUA-006-99(C)-M

             United States Department of the Interior
                              OFFICE OF INSPECTOR GENERAL
                                      Pacific Field Office
                                    415 Chalan San Antonio
                                   Baltej Pavilion, Suite 306
                                   Tamuning, Guam 96913

                                                                               March 28, 2002

Mr. Chris Murphy
Chairman, Board of Directors
Guam Economic Development Authority
ITC Building, Suite 511
590 South Marine Drive
Tamuning, Guam 96914

Subject:    Audit Report on Bond Services, Lease Operations and Trust Fund Activities,
            Guam Economic Development Authority, Government of Guam (Report
            No. 2002-I-0016)

Dear Mr. Murphy:

        This report presents the results of our audit of the bond services, lease operations, and
trust fund activities of the Guam Economic Development Authority.

       Please provide a response to this report by April 30, 2002. The response should
provide the information requested in Appendix 4 and should be addressed to our Pacific
Field Office, 415 Chalan San Antonio, Baltej Pavilion - Suite 306, Tamuning, Guam 96913.

       Section 5(a) of the Inspector General Act (5 U.S.C. app. 3) requires the Office of
Inspector General to list this report in its semiannual report to the U.S. Congress. In
addition, the Office of Inspector General provides audit reports to the Congress.

                                                Sincerely,


                                                Arnold E. van Beverhoudt, Jr.
                                                Audit Manager for Insular Areas


cc:   Honorable Carl T.C. Gutierrez, Governor of Guam
U.S. Department of the Interior                               Office of Inspector General

                            EXECUTIVE SUMMARY

             Bond Services, Lease Operations and Trust Fund Activities,
                     Guam Economic Development Authority,
                               Government of Guam
                               Report No. 2002-I-016
                                   March 2002

The Guam Economic Development Authority was established in August 1965 as a public
corporation "to assist in the implementation of an integrated program for the economic
development of Guam" and "to be a catalyst in the economic development" of Guam by
"aiding private enterprise without unfairly competing with it." The Authority is authorized
to provide loans, issue revenue bonds, purchase mortgages, and function as the
Government’s financial advisor and as manager of industrial park leases. In addition, the
Authority encourages private sector investment by granting tax rebates and abatements to
qualifying businesses under the Qualifying Certificate Program.

The objective of our audit was to determine whether the Guam Economic Development
Authority (1) effectively administered the bond and leasing programs, (2) achieved the
objectives for which those programs were established, and (3) adequately managed its trust
fund activities.

Although the Authority provided significant benefits to the Guam economy through its
bonding, leasing, and trust fund activities, we found that there was a need for improvements
in certain areas. Specifically:

9     Four semi-autonomous agencies of the Government of Guam lost or will lose as much
      as $65.1 million as a result of not requesting and/or following financial advice
      available from the Authority. This occurred because Guam law does not mandate that
      Government entities comply with or even consider the Authority’s advice.

9     The Authority lost rental income of as much as $1.5 million by not renegotiating
      industrial park leases for 14 lessees who were in violation of one or more conditions
      of their lease agreements and whose leases did not include rental escalation clauses
      based on the level of economic activity.

9     The Authority’s expenditures exceeded revenues by a total of $3 million during fiscal
      years 1997 through 2000. These losses resulted, at least in part, because the Authority
      was not adequately recovering costs related to the administration of the Landowners
      Recovery Fund.
We made one recommendation to the Governor of Guam and three recommendations to the
Authority’s Board of Directors to address these issues by (1) proposing legislation to require
that all Government of Guam agencies consult with the Authority prior to and during the
process of issuing bonds or entering into other financing agreements; (2) reviewing all cases
where industrial park lessees have violated their lease agreements and entering into
renegotiation of those leases to ensure that the leases contain rent escalation clauses tied to
the economic value of the property and that the lessees comply with all lease conditions; (3)
establishing formal policies and procedures for the leasing program, providing its lease
program personnel with appropriate training, and hiring additional staff as needed for the
Program and Compliance Division to effectively carry out its enforcement mission; and (4)
reversing all write-offs of loans from the Landowners Recovery Fund, executing promissory
notes and assignments with landowners, and filing applicable notices in the Guam courts to
ensure repayment of loans for legal fees under the Landowners Recovery Fund program.

AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL EVALUATION

The Governor did not respond to the recommendation that was addressed to him, and the
Authority concurred with one of the three recommendations addressed to its Board of
Directors. Based on the response, we considered three recommendations unresolved and
requested additional information for one recommendation.




                                              2
                                                 CONTENTS
                                                                                                                     Page

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    5

        BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      5
        OBJECTIVE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             6
        PRIOR AUDIT COVERAGE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                7

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                            8

        A. BOND SERVICES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
        B. LEASE OPERATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
        C. TRUST FUND ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

APPENDICES

        1.   CLASSIFICATION OF MONETARY AMOUNTS . . . . . . . . . . . . . . . . . . .                                    21
        2.   INDUSTRIAL PARK LEASES REVIEWED . . . . . . . . . . . . . . . . . . . . . . .                               22
        3.   GUAM ECONOMIC DEVELOPMENT AUTHORITY RESPONSE* . . . .                                                       23
        4.   STATUS OF AUDIT RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . .                                 34




*
 Redactions were made to Appendix 3 of this report pursuant to the Freedom of Information Act (FOIA)
exemption 6, 5 U.S.C. section 552 (b)(6).




                                                             3
4
                                 INTRODUCTION
BACKGROUND

The Guam Economic Development Authority was established in August 1965 as a public
corporation "to assist in the implementation of an integrated program for the economic
development of Guam" and "to be a catalyst in the economic development" of Guam by
"aiding private enterprise without unfairly competing with it." The Authority is authorized
to provide loans, issue revenue bonds, purchase mortgages, and function as the
Government’s financial advisor and as manager of industrial park leases. In addition, the
Authority encourages private sector investment by granting tax rebates and abatements to
qualifying businesses under the Qualifying Certificate Program.

The Guam Code Annotated (12 G.C.A. §50103(f)) authorized the Authority to issue, sell,
or dispose of revenue bonds and other obligations under such terms as prescribed by the
Guam Legislature. In addition, the Code (12 G.C.A. §50103(k)) authorized the Authority
to act as a central financial manager and consultant to other Government of Guam entities
requiring financial guidance and assistance. Although the Authority was assigned these
responsibilities around 1982, the Authority has only been actively involved in the
Government’s public financing process since 1996. During the period of October 1, 1996
to June 30, 2000, the Authority assisted in the issuance of one general obligation bond
($76 million) and three revenue bonds ($399.2 million), and one commercial loan
refinancing arrangement ($27 million). As of fiscal year 2000, the Government of Guam
had eight general obligation bonds ($568.4 million) and nine revenue bonds ($797.1 million)
outstanding. As of June 2000, the Authority was assisting in the preparation of six
additional bonds for issuance.

With regard to leasing operations, the Authority had 34 active industrial park leases with
total annual rental income of about $1.2 million based on rental rates in effect as of
June 2000. Leases were issued for periods of up to 90 years, with most leases limiting
rental rate increases to once every 10 years in amounts not to exceed 10 to 25 percent of the
existing rental rates. By renegotiating at least nine of its existing leases, the Authority was
able to increase rental income on these nine leases from $123,272 to $945,264 per year.
Because the primary source of the Authority’s operating revenue was rental income,
increased rental rates were important to the Authority’s ability to meet its financial
obligations.

In addition to the industrial park leases, the Authority was responsible for redeveloping the
former Naval Ship Repair Facility on Guam. Under the Base Realignment and Closure
Commission (BRAC) provisions, the U.S. Navy leased the Ship Repair Facility to the
Authority in October 1997. The Authority, through the BRAC GovGuam Steering
Committee, subleased the approximately 100-acre property to two corporations for an
average rental income of $721,848.




                                              5
According to the Authority’s annual financial statements, during fiscal years 1997 to 1999,
the Authority had net losses for each year, which resulted in an accumulated deficit of
$3 million at the end of fiscal year 1999. For fiscal year 2000, the Authority had a net gain
of $102,991 due to recording of $1.1 million in previously unrecorded lease revenues from
subleasing the former Ship Repair Facility during 1998 through 2000. The Authority’s fiscal
year 2000 operating budget totaled $4.2 million. The Authority had a staff of 43 employees
as of September 30, 1999, which was reduced to 28 employees as of September 28, 2000.

OBJECTIVE AND SCOPE

The objective of our review was to determine whether the Guam Economic Development
Authority (1) effectively administered the bond and leasing programs, (2) achieved the
objectives for which those programs were established and (3) adequately managed its trust
fund activities. The scope of the audit included a review of operations during fiscal years
1997 to 2000 (through June 2000) and other periods as deemed appropriate. We did not
audit the management of the former Naval Ship Repair Facility subleases by the BRAC
GovGuam Steering Committee.

This is the third of three reports we plan to issue on the operations of the Guam Economic
Development Authority. The other two reports covered (1) economic development loan
programs and (2) the qualifying certificate program.

To obtain information on the Development Authority’s bond services, lease operations, and
trust fund activities, we interviewed officials and/or reviewed records at the offices of the
Guam Economic Development Authority, the Guam Housing Corporation, and the
Development Authority’s independent public accounting firm. We also obtained
information from the Guam Department of Administration and the Guam Power Authority.
 In addition, we inspected the Lada Estate project site and visited various industrial park
premises.

Our review was made, as applicable, in accordance with the "Government Auditing
Standards," issued by the Comptroller General of the United States. Accordingly, we
included such tests of records and other auditing procedures that were considered necessary
under the circumstances.

As part of the audit, we evaluated the system of internal controls related to the financial and
operational management of the Authority’s bond, leasing, and trust fund programs to the
extent that we considered necessary to accomplish the audit objective. Based on our review,
we determined that the Authority generally achieved the purposes of the bond, leasing, and
trust fund programs. However, we identified internal control weaknesses in the areas of
providing financial advice for bond administration, renegotiating lease terms and conditions,
and processing loans for legal fees under the Landowners Recovery Fund. These
weaknesses are discussed in the Findings and Recommendations section of this report. Our
recommendations, if implemented, should improve the internal controls in these areas.



                                              6
PRIOR AUDIT COVERAGE

During the past 5 years, neither the U.S. General Accounting Office nor the Office of
Inspector General issued an audit report on the financial activities of the Guam Economic
Development Authority. However, in October 1998, the Office of the Public Auditor,
Government of Guam, issued a report entitled "Management Audit of the Guam Economic
Development Authority" (No. PA-01-98). The Public Auditor evaluated the Authority’s
system of internal controls related to travel, consulting contracts, credit cards, petty-cash and
other operations. The report did not discuss any control weaknesses with the Authority’s
bond, leasing, and trust fund programs. In addition, independent auditors issued single audit
reports on the Authority for the periods ending September 30, 1997 to 2000 but did not
report any problems with the bond, leasing, and trust fund programs.




                                               7
               FINDINGS AND RECOMMENDATIONS
A. BOND SERVICES

Four semi-autonomous agencies of the Government of Guam lost or will lose as much as
$65.1 million as a result of not requesting and/or following financial advice available from
the Guam Economic Development Authority. Although Guam law (12 G.C.A. §50103(k))
designates the Development Authority as the Government’s financial manager, to include
issuing and assisting in the issuance of bonds, the law does not mandate that Government
entities comply with or even consider the Development Authority’s advice.

Housing Corporation Bonds

The Guam Housing Corporation ignored the Development Authority’s recommendations and
issued a $50 million mortgage revenue bond that was $30 million larger than the
Development Authority had recommended. As a result, the Housing Corporation and Guam
residents will most likely lose the use of at least $30 million in bond proceeds intended for
home mortgage loans and incur additional unnecessary costs of about $12.4 million.

      Development Authority Recommendation Not Followed. On April 1, 1998 the
Housing Corporation issued $50 million in housing mortgage bonds for first-time home
buyers. The $50 million bond included $20 million for individual low interest rate housing
loans and $30 million for housing to be built in a single large housing project at Lada
Estates. The Development Authority had strongly recommended limiting the bond issue to
$20 million. However, the Housing Corporation insisted on including in the bond issue the
$30 million for the Lada Estates project.

On April 15, 1998, two large New York underwriters announced the $50 million "Guam
Housing Corporation Single Family Mortgage Revenue Bonds" in their Official Statement.
The Official Statement stated, in part:

      The Housing Corporation expects the principal amount of Home Mortgages
      attributable to Lada Estates to account for over 60% of the principal amount of
      all Home Mortgages originated [under the $50 million bond issue].

      The development plans for Lada Estates contemplate the construction of 400
      units.

      The Housing Corporation expects construction of the Lada Estates project to
      begin by June 1998 and to be completed in eight phases, over a period of two
      years. Approximately 100 units are expected to be completed at the end of the
      first year. On April 6, the Housing Corporation selected Pegasus Development
      Corporation, Tamuning, Guam, as the developer for the Lada Estates project.




                                             8
The bonds were issued during May 1998, but as of August 22, 2001, the Housing
Corporation still did not have a contract with a developer to construct housing at Lada
Estates.

       Potential Losses on Bond Issue. According to Section 143 of the Internal Revenue
Code, unused qualified mortgage bond proceeds (not used to purchase home loans within
42 months of the date of issuance) must be used to redeem an equivalent amount of the
bonds prior to the end of the 42-month period. According to the bond indenture, the
42-month period will expire on November 1, 2001 and, because no construction has begun
on the Lada Estates project, the $30 million in bonds will have to be redeemed. As of
August 22, 2001, we saw no housing construction activity at the Lada Estates project (see
Figure 1). Although the Housing Corporation was attempting to use the entire $50 million
for direct loans to first-time home buyers, as of August 22, 2001, only 60 loans totaling
$6.2 million had been closed.




Figure 1. The infrastructure (roads, power, sewer, and water utilities) for the Lada Estates housing project
had been constructed. However, as of August 2001, no housing construction had been started.

We also found that, as part of the bond indenture, the Housing Corporation placed $1 million
in escrow, and the entire $50 million in bond proceeds must be issued in mortgage loans for
the Corporation to recover the $1 million. We estimated that at least $500,000 of the escrow
will be forfeited if the mortgage loans are not made by the November 1, 2001 deadline. The

                                                      9
Housing Corporation’s Quality Assurance Officer told us that the Housing Corporation did
not begin to actively market the mortgage loans until November 1999 and that the prospects
of lending even $20 million recommended by the Development Authority by
November 1, 2001 were low given the small pool of potential borrowers and the remaining
available time.

Further, in preparation for the Lada Estates project, the Housing Corporation had contracted
for and had constructed the project infrastructure (roads and power, sewer, and water
utilities) at a cost of about $10.5 million. However, the Housing Corporation had planned
to pay for the infrastructure by allocating and including the cost in the selling price of the
400 planned houses. Since the Housing Corporation never signed a contract to construct the
houses and there did not appear to be much housing demand, it could not pay the
infrastructure contractor. As of September 2000, the Housing Corporation owed the
infrastructure contractor $12.4 million, including $1.8 million of interest on the unpaid
$10.6 million contract amount.

In summary, because it did not follow the financing advice of the Development Authority,
the Housing Corporation could lose the use of at least $30 million in housing mortgage
bonds, at least $500,000 of the $1 million placed in escrow as part of the bond issuance
process, and as much as $12 million for infrastructure improvements that have little
likelihood of being used in the foreseeable future.

Semi-Autonomous Agency Financing

In separate instances, three semi-autonomous Government entities did not seek the
Development Authority’s financing advice. Consequently, two of the entities lost a total of
about $22.2 million in potential interest revenue and increased loan expenditures.

       Guam International Airport Authority. In 1993, the Guam International Airport
Authority issued bonds totaling $240 million to construct a new airport. In structuring the
bond issue, the Airport Authority did not use the financing expertise available at the
Development Authority to invest the bond proceeds in guaranteed investment contracts
structured to allow for the highest interest rate authorized by the U.S. Internal Revenue
Service. Instead, the Airport Authority placed the bond proceeds in savings accounts or
other accounts with lower interest rates than being paid on the bonds. The Airport
Authority’s June 15, 1998 "Interim Arbitrage Rebate Analysis" states that due to "negative
arbitrage" (unrealized interest earnings) the Airport Authority had lost potential earnings of
$16.1 million. According to the Development Authority’s Administrator, the Development
Authority did not know prior to the arbitrage analysis (issued 5 years after issuance of the
bonds) that the Airport Authority did not place the bond proceeds in investments earning the
higher interest rates allowed by the U.S. Internal Revenue Service. By that time, it was too
late to reinvest the funds because they had already been expended by the Airport Authority.
The Development Authority could have helped the Airport Authority to find investments that
were within the authorized investment income rate, thus reducing the unrealized interest
earnings by as much as $16.1 million.


                                             10
       Guam Waterworks Authority. In 1989, the Government of Guam issued a
$49 million general obligation bond with 20 years maturity for the Guam Waterworks
Authority. In 1999, the Development Authority assisted the Waterworks Authority in
refinancing the 1989 bonds at a lower interest rate. Based on the Development Authority’s
analysis, the Government of Guam’s General Fund could have a cash flow savings in fiscal
year 2000 in the amount of $4.6 million. This cash flow savings would have been the debt
service payment that the Waterworks Authority would have made in September 2000 had
the bonds not been refinanced. Instead, the 1989 bonds would have been redeemed and the
first payment for the new bonds would not have been due until the following year (2001).
In addition, there would have been an overall interest expense savings of $1.5 million over
the life of the bonds because of the lower interest rate on the refinanced bonds. However,
the bonds were not refinanced. According to a legislative financial consultant, the
Development Authority was not able to complete the required actions for guaranteeing the
bonds before the April 4, 2000 target date for closing the refinancing transaction.

The Authority’s Financial Services Manager stated that a local bank has a first lien on
Section 301 revenues, which guaranteed the $27 million Hospital loan (as discussed in the
paragraph below). The Manager explained that in order to refinance the Waterworks bond,
the Authority needed the bank to subordinate the lien for the Hospital loan to another lien
guaranteeing the new Waterworks bond. However, the bank did not agree to such
subordination although the Hospital loan already had other substantial guarantees (such as
assignment of medical services revenue, a first priority real property mortgage, and a
Government of Guam guarantee) in addition to the lien on Section 30 revenues. As of
June 2001, the Development Authority was working on another refinancing proposal to
present to the Legislature.

      Guam Memorial Hospital. In 1997, the Guam Memorial Hospital borrowed
$27 million from a local bank for 12 years at an 8 percent, variable interest rate. Before
making the bank loan, the Hospital did not consult with the Development Authority to
determine whether there were alternative financing sources and, as a result, the Development
Authority did not know about the proposed bank loan until it had already been executed. In
addition, in order for the loan to be approved, Section 30 revenues from the Government of
Guam’s General Fund had to be pledged to guarantee the loan in the event the Hospital
defaulted on the loan. As of June 2000, the Development Authority was working with the
Hospital to refinance the loan and release the lien on the Section 30 revenues. In the
meantime, as of May 2001, the Hospital had already paid more than $6.1 million in interest
on the bank loan.

In contrast to these three examples of agencies not consulting with the Development
Authority prior to engaging in financing activities or not following the advice of the
Development Authority, in 1999 the Guam Power Authority sought the assistance of the
Development Authority in issuing revenue bonds to fund development projects and refinance


1
 Section 30 revenues are Federal income taxes withheld from the salaries of military personnel stationed on
Guam and rebated by the Federal Government to the Government of Guam.

                                                    11
existing bonds and commercial loans. As a result, the Power Authority was able to reduce
interest costs by at least $11 million.

Recommendation

We recommend that the Governor of Guam submit proposed legislation to the Guam
Legislature to amend Title 12, Chapter 50, of the Guam Code Annotated to require that all
Government of Guam agencies consult with the Guam Economic Development Authority
prior to and during the process of issuing bonds or entering into other financing or
refinancing agreements. The proposed legislation should also require that Government
agencies provide written justification to the Governor and the Guam Economic Development
Authority if the agencies decline to follow the Authority’s advice.

Guam Economic Development Authority Response and Office of Inspector
General Reply

A draft of this report was delivered to the Governor of Guam on October 15, 2001 and, the
Governor’s Chief of Staff agreed to ask the Governor to provide a response by December 21,
2001. As of January 8, 2002, a response had not been received from the Governor. In the
December 10, 2001 response (Appendix 3) to the draft report from the Authority’s Acting
Administrator, the Authority concurred with the Recommendation and stated that "in order
to ensure that there is consistent information and financial advice given to the Government
of Guam, legislation should be introduced to have all Government of Guam agencies adhere
to the financial advice that is offered by [the Authority] as the central financial manager for
the Government" and to have agencies "provide written justification for action that is
contrary to the advice given by the Authority." Nevertheless, because the Recommendation
was addressed to the Governor and he did not provide a response, we consider the
Recommendation unresolved (see Appendix 4).




                                              12
B. LEASE OPERATIONS

The Authority lost rental income of as much as $1.5 million by not renegotiating industrial
park leases for 14 lessees who were in violation of one or more conditions of their lease
agreements and whose leases did not include rental escalation clauses based on the level of
economic activity. For these 14 leases and 2 other leases where lessees were in compliance
with their lease agreements, rental increases were limited to once every 10 years and in
amounts of only 10 to 25 percent of the existing rental rates. In nine other cases, the
Authority had renegotiated lease terms, thereby increasing rental income from $123,272 to
$945,264 per year. The Authority did not have formal lease policies and procedures,
adequate training for existing lease program personnel, or sufficient personnel to meet its
lease enforcement workload. Because the Authority’s primary source of operating revenue
was rental income, the level of such rental income was critical to the Authority’s ability to
meet its financial obligations.

Lease Escalation Clauses

Of the Authority’s 34 industrial park leases, we examined 25 leases for a total area of about
40 acres and with total annual rental payments of about $1.2 million as of June 30, 2000 (see
Appendix 2). Of the 25 leases reviewed, 5 had rental rate escalation clauses tied to
economic activity. However, the files for five of the nine leases did not contain any record
of the basis for the rental rates or the considerations used during lease renegotiations. As of
June 30, 2000, the total annual rental amount for the nine leases had increased from
$123,272 to $945,264 (667 percent) over the lives of the leases.

The other 16 leases reviewed were for periods of up to 90 years and most had lease terms
that limited rental rate increases to once every 10 years and in amounts of only 10 to 25
percent of the existing rental rates. The President of the Guam Board of Realtors told us
that, as a general principle, leases lacking escalation clauses based on economic activity
should be renegotiated at the earliest opportunity. For these 16 leases, the files did not
contain any record of lease renegotiations or the basis for the lease periods and rental rates.
In contrast to the 9 leases with escalation clauses based on economic activity, as of June 30,
2000, the total annual rental amount for these 16 leases had increased from $219,187 to
$270,724 (only 24 percent) over the lives of the leases.

An Authority manager stated that the Authority generally did not attempt to renegotiate
leases because higher rental rates would create an economic hardship on the businesses and
existing lease language appeared to preclude such action. However, we determined that the
Authority was able to renegotiate four of the nine leases with escalation clauses although the
original leases did not contain contractual language tying rental payments more closely to
current economic activity. This generally occurred if the lessee violated one or more
provisions of their leases. We found that for 2 of the 16 leases without escalation clauses,
the lessees were in compliance with all lease provisions. However, we believe that the
Authority would be able to force a renegotiation of the other 14 leases because the lessees
had violated one or more of their lease provisions. For example:


                                              13
       - On December 28, 1970, the Authority issued a 90-year lease to a company for a
5-acre industrial park lot at an annual rental rate of $5,605 and a provision limiting rent
increases not to exceed 10 percent every 10 years (see Figure 2). As of June 30, 2000, the
rental rate had increased by $1,177 to $6,782, or 17 percent, in almost 30 years. Section 6
of the lease agreement stated that "absolutely no assignment of this lease may be made by
the Lessee, but the Lessee may sublease the property leased, or a portion of it, to any third
party, subject to the consent of the Lessor and to the approval of the Governor of Guam."
Further, Section 8 of the lease agreement stated, "The Lessee shall, during the entire term
hereof, keep in full force and effect, a policy of public liability insurance satisfactory to the
Lessor . . . naming the Lessee and Lessor as the insured. . . . [T]he Lessee shall deposit with
the Lessor before the effective date of this lease, a certified copy of such insurance policy."
We determined that the sublessees were paying the primary lessee total rent of about
$856,920 per year, or more than 126 times the $6,782 per year that the primary lessee was
paying the Authority. In addition, the lessee violated Section 8 of the lease by allowing its
insurance policy to expire on December 31, 1996. The Authority’s Deputy Administrator
sent a reminder letter to the lessee on January 22, 1997, but insurance had not been provided
as of the time of our audit.




Figure 2. Several companies subleased the property from the primary lessee, producing rental revenue for
the lessee at rental rates more than 126 times the rate paid to the Authority by the lessee.

       - On November 12, 1971, the Authority issued a 90-year lease to a company for a
½-acre industrial park lot at an annual rental rate of $2,448 and a provision limiting rent
increases not to exceed 10 percent every 10 years (see Figure 3). As of June 30, 2000, the
rental rate had increased by $514 to $2,962, or 21 percent, in almost 30 years. Section 1 of

                                                  14
the lease agreement stated that the lease was "for the purposes of the Lessee’s constructing,
maintaining, and operating thereon facilities necessary or incident to its business of
warehousing and wholesaling of tires and tubes, batteries and affiliated products, including
automotive parts." In addition, Section 8 of the lease agreement stated, "The Lessee shall,
during the entire term hereof, keep in full force and effect, a policy of public liability
insurance satisfactory to the Lessor . . . naming the Lessee and Lessor as the insured. . . .
[T]he Lessee shall deposit with the Lessor before the effective date of this lease, a certified
copy of such insurance policy." We determined that the lessee violated Section 1 of the
lease because the lessee was no longer conducting an automotive tire business on the lot, but
instead was using the lot as an investment property by subleasing it to a third party. The
sublessee was paying the primary lessee rent of about $30,000 per year, or more than
10 times the $2,962 per year that the primary lessee was paying the Authority. In addition,
the lessee violated Section 8 of the lease by allowing its insurance policy on the property to
expire on April 29, 1998. The Authority’s Compliance and Program Officer sent a reminder
notice to the lessee on July 19, 1999, but insurance had not been provided as of the time of
our audit.




Figure 3. The property had been subleased by the lessee at a rental rate more than 10 times the rate paid to the
Authority by the lessee.


Section 10 of the lease agreements used by the Authority states, "Upon notice and hearing,
any failure of the Lessee to conform to any condition of this lease . . . shall cause this lease
to be terminated forthwith." Despite this provision, the Authority did not use instances of
lessee noncompliance with lease conditions as opportunities for renegotiating leases to
achieve more advantageous lease rental rates because the Authority had other higher work

                                                      15
priorities and lacked formal leasing policies and procedures, sufficient compliance
enforcement personnel, and adequate employee training. We found no record in the files of
the 14 leases without rate escalation clauses that the Authority had attempted to renegotiate
the lease terms using the lease violations as leverage for reopening lease negotiations. We
estimated that if the Authority was able to renegotiate lease agreements for these 14 leases
based on the same level of rental rate escalations obtained on the nine leases where
escalation clauses had been negotiated, it could have generated additional rental income of
about $1.5 million per year.

Future Industrial Leases

At the time of our audit, the Authority was in the early stages of planning for the lease of
248 acres of prime industrial and commercial property owned by the Government of Guam
adjacent to Guam’s international airport. However, the Authority had not developed a
leasing system for negotiating and writing new leases to ensure that the Government collects
lease revenue commensurate with the value of the leases over their entire term. According
to Authority personnel, the Authority had not established a formal leasing process to identify
reasonable lease rates, periods, and other conditions because of higher priority work and
limited compliance personnel. Without adequate research and leasing procedures, the
leasing problems experienced by the Authority for 40 acres of property initially leased out
during the 1970's and 1980's could be repeated with this new industrial park development.
Therefore, the Authority should establish an effective leasing process with formal lease
policies and procedures prior to entering into negotiations for the lease of the 248 acres of
property near the Guam airport.

Recommendations

We recommend that the Board of Directors of the Guam Economic Development Authority:

      1. Review on a current basis all cases where lessees have violated one or more lease
conditions and enter into renegotiation of those leases to ensure that the leases contain rent
escalation clauses tied to the economic value of the property and that the lessees comply
with all lease conditions. If current noncompliant lessees are not willing to renegotiate their
leases and comply with all lease conditions, the Authority should terminate the leases and
seek other prospective tenants for the properties.

      2. Establish formal policies and procedures for the leasing program, provide its lease
program personnel with appropriate training, and hire additional staff as needed for the
Program and Compliance Division to effectively carry out its enforcement mission.

Guam Economic Development Authority Response and Office of Inspector
General Reply

In the December 10, 2001 response (Appendix 3) to the draft report from the Authority’s
Acting Administrator, the Authority implied nonconcurrence with Recommendation 1 and

                                              16
expressed concurrence with Recommendation 2. Based on the response, we request that the
Authority reconsider Recommendation 1, which is unresolved, and provide additional
information for Recommendation 2 (see Appendix 4).

Recommendation 1. Nonconcurrence implied.

       Guam Economic Development Authority Response. The Authority stated that its
legal counsel had reviewed each lease agreement in 1996 and determined "that a contract is
binding and there is nothing [the Authority] could do to break the lease agreements." In
addition, the Authority claimed that 11 of the 14 leases cited in the finding had no violations
and "there would have to be major violations of the lease provisions in order to cancel the
lease or enter into renegotiations to enforce an increase in the lease payments."

       Office of Inspector General Reply. Our review of leases covered the period of
October 1, 1996 (beginning of fiscal year 1997) through June 2000. Therefore, almost all
of the lease violations cited in the finding occurred after the review performed by the
Authority’s legal counsel in 1996. All 14 leases cited in the finding had major violations of
one or more of the lease provisions. For example, required insurance coverage had expired
for nine of the leases during the period of April 1997 through December 1999, for three
other leases in December 1996, and for one lease in May 1995. Additionally, 10 of the 14
leases had delinquencies totaling about $314,000, and two leases had violations of the lease
provisions regarding the purpose for the lease and/or assignment of the lease.

We disagree with the Authority’s generalized application of contract law principles to the
specific facts underlying our recommendation. Nothing precludes the Authority from
exercising its contractual right to terminate the lease agreements in question. In fact, the
Authority’s lease agreements provide recourse for the Authority to cancel the leases for
cause. Specifically, Section 10 of the lease agreements states, "Upon notice and hearing, any
failure of the LESSEE to conform to any condition of this lease . . . shall cause this lease to
be terminated forthwith." (Emphasis added.) This provision does not differentiate between
"major" and "minor" violations. The lease examples cited in the finding show that some
lessees reaped huge monetary benefits by violating the lease purpose and
assignment/subleasing clauses of their lease agreements. Therefore, we believe that it would
be economically prudent for the Authority to use the cancellation clause in the lease
agreements as leverage to renegotiate more equitable rental fees. If the lessees are
uncooperative, the Authority can exercise its right to cancel the leases and seek other tenants
for the properties. We have revised Recommendation 1 to require that the Authority review
on a current basis all cases (not just the 14 cited in the finding) where lessees have violated
lease conditions.

Recommendation 2. Concurrence indicated.

      Guam Economic Development Authority Response. The Authority stated that the
lease monitoring and litigation process has improved since the establishment of a
Compliance and Internal Audit Division and the assignment of an administrative assistant
and an additional staff member to focus on the Lease Program. The Authority also stated

                                              17
that standard operating procedures are being developed that "will provide guidance when
entering into new leases, applying escalations and conducting enforcement."

       Office of Inspector General Reply. Although the Authority’s response indicated that
standard operating procedures were being developed, the response did not provide a target
date for implementation of the standard operating procedures or for providing appropriate
training to Lease Program personnel. Therefore, we request that the Authority provide the
additional information indicated in Appendix 4.




                                           18
C. TRUST FUND ACTIVITIES

The Authority’s expenditures exceeded revenues by a total of $3 million during fiscal years
1997 through 2000. We believe that these losses resulted, at least in part, because the
Authority was not adequately recovering costs related to the administration of the
Landowners Recovery Fund. The Fund was one of at least 12 trust fund programs that the
Authority administered. In most instances, the costs of administering these trust fund
programs were reimbursed by the Federal and local governments or by contributions from
private businesses. However, this was not the case for the Landowners Recovery Fund.

Landowners Recovery Fund

The Landowners Recovery Fund was established to assist private landowners in their
ongoing litigation to challenge the U.S. Government for title to land taken by the military
during World War II and land designated as critical habitats for wildlife species. This
assistance was provided, at least in part, by providing loans to private landowners to finance
litigation. In that regard, the Guam Code Annotated (12 G.C.A. §74108(b)) states that "No
single loan . . . shall exceed Two Hundred Twenty Thousand Dollars ($220,000)." In
addition, the Code (12 G.C.A. §74108(c)) states, "Any recipient of a loan shall, at the time
the loan is granted, execute a promissory note to Guam Economic Development Authority,
payable . . . on demand after the recipient receives court awarded attorney’s fees or expenses
in connection with the litigation. Any such recipient shall also execute, at the time the loan
is granted, an assignment to Guam Economic Development Authority of proceeds ultimately
obtained by such recipient in an award of court awarded fees or expenses in connection with
litigation." Further, the Code (12 G.C.A. §74108(d)) states, "The Authority shall cause
notices to be filed in the Court File of pending litigation setting forth the fact of the making
of such assignments and the interests of the Authority under such assignments and setting
forth the interest of the Authority and Government of Guam in respect to funds previously
provided." Finally, the Code (12 G.C.A. §74121) states, "In the event such private
landowners receive monetary damages or any recovery of legal costs in the course of such
litigation, they shall reimburse the Landowners Recovery Fund their pro rata share of such
damages and costs that the Courts determines in such action represents the value of the
services to such landowners rendered by the Special Litigator."

However, contrary to the requirements of the Guam Code, the Authority (1) did not execute
promissory notes and assignments to ensure repayment of legal fees paid on the behalf of
landowners; (2) did not file notices in the Guam courts to safeguard the interests of the
Authority and the Government of Guam; (3) did not ensure that any single loan to
landowners did not exceed the $220,000 loan limit; and (4) had entered into a
noncompetitive contract for a special litigator. These conditions occurred because the
Authority did not establish policies and procedures for processing loans under the
Landowners’ Recovery Fund. As a result, the Authority spent at least $1,418,495 on legal
services of the special litigator to represent the Government of Guam and loans to
landowners without guarantee of reimbursement by landowners who were successful in their
litigations.


                                              19
Recommendation

We recommend that the Board of Directors of the Guam Economic Development Authority
reverse all write-offs of loans, execute promissory notes and assignments with landowners,
and file applicable notices in the Guam courts to ensure repayment of loans for legal fees
under the Landowners Recovery Fund program. If promissory notes and assignments were
already executed, the Authority should contact the Courts and coordinate with the Office of
Attorney General to determine whether any of the landowners received court-awarded
compensation for legal expenses and initiate collection efforts to recovery amounts owed to
the Landowners Recovery Fund.

Guam Economic Development Authority Response and Office of Inspector
General Reply

In the December 10, 2001 response (Appendix 3) to the draft report from the Authority’s
Acting Administrator, the Authority implied nonconcurrence with the Recommendation.
Based on the response, we request that the Authority reconsider Recommendation 1, which
is unresolved (see Appendix 4).

Recommendation. Nonconcurrence implied.

       Guam Economic Development Authority Response. The Authority stated that
subsequent to the audit, it had found Demand (promissory) Notes and Assignments of
Litigation Proceeds filed with the U.S. District Court of Guam. The Authority also stated
that these legal documents were filed by previous administrations and were beyond the
control of the Authority’s current administration. The Authority further indicated that the
loans from the Landowners Recovery Fund were written off previous to the Authority’s
current administration and that it would be a "futile exercise" to pursue these cases.

       Office of Inspector General Reply. The pertinent sections of the Guam Code
Annotated (12 G.C.A. § 74108(b), (c), and (d) and § 74121) were enacted to protect the
interests of the Authority and the Government of Guam under the Landowners Recovery
Fund by establishing procedures for the Fund to be repaid by the borrowers when their land
cases were finally adjudicated.

During the audit, we interviewed the Authority’s Chief Financial Officer, who stated that no
claims (Demand Notes and Assignments of Litigation Proceeds) were filed with the Courts.
Although the Authority now states that such documents exist, the response did not indicate
whether the Authority had contacted the Courts or coordinated with the Office of Attorney
General to determine whether any of the landowners received court-awarded monetary
damages, attorney fees, or compensation for other expenses incurred in connection with their
cases. Therefore, we believe that the Authority had no basis for writing off any of the loans
without making this determination and attempting collection efforts based on the Guam
Code Annotated and the Demand Notes and Assignments of Litigation Proceeds filed with
the Court. Nevertheless, we have revised the Recommendation based on the response.


                                             20
                                                            APPENDIX 1

               CLASSIFICATION OF MONETARY AMOUNTS

                                       Unrealized   Funds to be Put
            Finding Areas              Revenues*    to Better Use*

       Bonds Services                                $65,057,469

       Industrial Park Leases          $1,543,024

       Financial Operations                             1,418,495

          Totals                       $1,543,024    $66,475,964




__________
* Amounts represent local funds




                                  21
                                                                                                  APPENDIX 2

                           INDUSTRIAL PARK LEASES REVIEWED

             Property                        Lease       Original      Current      Amount of        Does
              Size in           Year         Term        Annual        Rental       Increase in     Lessee
Lease         Square           Lease       Including     Rental       Rate as of      Rental        Have a
 No.          Meters           Signed       Options       Rate      June 30, 2000    Payments      Sublessee?

   1            2,101           1983        30 years      $8,825      $48,600*       $39,775           No

   2            3,316           1984        80 years     $12,480      $14,352         $1,872           No

   3            3,050           1985        80 years     $16,138      $18,559         $2,421           No

   4           11,663           1971        90 years     $18,072      $21,867         $3,795          Yes

   5            6,595           1986        75 years     $32,009      $35,210         $3,201           No

   6            3,125           1982        50 years     $11,760      $62,500*       $50,740          Yes

   7            8,674           1969        80 years      $4,500      $12,000*        $7,500        No-Gov’t.

   8            8,344           1984        80 years     $27,571     $126,299*       $98,728          Yes

   9            4,132           1971        90 years      $4,896       $5,923         $1,027          Yes

  10            3,647           1983        30 years     $15,319      $19,149         $3,830           No

  11            6,647           1985        80 years     $25,041      $27,545*        $2,504        No-Gov’t.

  12            3,627           1971        90 years      $4,350       $5,263          $913           Yes

  13            3,714           1971        90 years     $10,000     $342,300*       $332,300         Yes

  14            2,083           1971        90 years      $2,404       $2,909          $505           Yes

  15            2,083           1971        90 years      $2,448       $2,962          $514           Yes

  16            5,394           1983        78 years     $13,800      $52,537*       $38,737          Yes

  17            9,420           1985        80 years      $4,050       $4,658          $608           Yes

  18            8,094           1972        90 years      $2,428       $5,875         $3,447          Yes

  19           18,684           1970        90 years      $5,605       $6,782         $1,177          Yes

  20            4,047           1981        90 years      $1,214       $1,469          $255            No

  21            5,913           1981        90 years      $1,774       $2,146          $372           Yes

  22            2,069           1990        72 years     $36,000      $39,600         $3,600          Yes

  23            4,660           1996        25 years     $60,000      $84,000        $24,000           No

  24           22,660           1970        90 years     $16,000     $161,842*       $145,842      Not Known

  25            6,674           1971        90 years      $5,775     $111,641*       $105,866      Not Known

Totals       160,416**                                   $342,459    $1,215,988      $873,529


* The Authority renegotiated these lease rental rates.
** About 40 acres (4,047 square meters equals 1 acre).

                                                         22
                                     APPENDIX 3
                                      Page 1 of 11


GUAM ECONOMIC DEVELOPMENT AUTHORITY RESPONSE




                     23
     APPENDIX 3
      Page 2 of 11




24
     APPENDIX 3
      Page 3 of 11




25
     APPENDIX 3
      Page 4 of 11




26
     APPENDIX 3
      Page 5 of 11




27
     APPENDIX 3
      Page 6 of 11




28
     APPENDIX 3
      Page 7 of 11




29
     APPENDIX 3
      Page 8 of 11




30
     APPENDIX 3
      Page 9 of 11




31
     APPENDIX 3
     Page 10 of 11




32
     APPENDIX 3
     Page 11 of 11




33
                                                                        APPENDIX 4

      STATUS OF AUDIT REPORT RECOMMENDATIONS

Finding/Recommendation
       Reference            Status                      Action Required

         A.1             Unresolved.        Respond to the recommendation and
                                            provide a response indicating
                                            concurrence or nonconcurrence. If
                                            concurrence is indicated, provide the
                                            target date for submitting proposed
                                            legislation to the Guam Legislature to
                                            amend Title 12, Chapter 50, of the Guam
                                            Code Annotated.

         B.1             Unresolved.        Respond to the revised recommendation
                                            and provide a response indicating
                                            concurrence or nonconcurrence. If
                                            concurrence is indicated, provide the
                                            target date and title of the official
                                            responsible for implementation.

         B.2             Management         Provide the target date for the Board of
                         concurs;           Directors to adopt formal policies and
                         additional         procedures for the Lease Program and to
                         information        provide Lease Program personnel with
                         requested.         appropriate training.

         C.1             Unresolved.        Respond to the revised recommendation
                                            and provide a response indicating
                                            concurrence or nonconcurrence. If
                                            concurrence is indicated, provide the
                                            target date and title of the official
                                            responsible for implementation.




                                       34
Mission
The mission of the Office of Inspector General (OIG) is to
promote excellence in the programs, operations, and
management of the Department of the Interior (DOI). We
accomplish our mission in part by objectively and
independently assessing major issues and risks that directly
impact, or could impact, the DOI’s ability to carry out its
programs and operations and by timely advising the Secretary,
bureau officials, and the Congress of actions that should be
taken to correct any problems or deficiencies. In that respect,
the value of our services is linked to identifying and focusing
on the most important issues facing DOI.


How to Report Fraud, Waste, and Abuse
Fraud, waste, and abuse in Government are the concern of
everyone – Office of Inspector General staff, Departmental
employees, and the general public. We actively solicit
allegations of any inefficient and wasteful practices, fraud, and
abuse related to Departmental or insular area programs and
operations. You can report allegations to us by:

Mail:         U.S. Department of the Interior
              Office of Inspector General
              Mail Stop 5341-MIB
              1849 C Street, NW
              Washington, DC 20240

Phone:        24-Hour Toll Free                    800-424-5081

              Washington Metro Area                202-208-5300
              Hearing Impaired                     202-208-2420
              Fax                                  202-208-6023

              Caribbean Region                     703-487-8058
              Northern Pacific Region              671-647-6060

Internet:     www.oig.doi.gov/hotline_form.html
